APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals for the District of Columbia
Circuit (April 14, 2020) ......................................................................................... App. 1
Memorandum Opinion in the United States District Court for the District of
Columbia (September 13, 2018) ......................................................................... App. 14

i

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued February 12, 2020

Decided April 14, 2020

No. 18-5330
DEBORAH KATZ PUESCHEL,
APPELLANT
v.
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS SECRETARY,
DEPARTMENT OF TRANSPORTATION AND UNITED STATES
DEPARTMENT OF LABOR,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-01279)
George M. Chuzi argued the cause and filed the briefs for
appellant.
Christopher C. Hair, Assistant U.S. Attorney, argued the
cause for appellees. With him on the brief were Jessie K. Liu,
U.S. Attorney, at the time the brief was filed, and R. Craig
Lawrence, Assistant U.S. Attorney. Damon Taaffe, Assistant
U.S. Attorney, entered an appearance.
Before: ROGERS and WILKINS, Circuit Judges, and
SILBERMAN, Senior Circuit Judge.

App. 1

Page 1 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

2
Opinion for the Court by Circuit Judge ROGERS.
ROGERS, Circuit Judge: Deborah Pueschel is a former
employee of the Federal Aviation Administration (“FAA”)
whose full disability benefits were reduced after she ran for
elective office. She sued the Secretary of Transportation for
unlawful retaliation and discrimination, and sued the Secretary
of Transportation and the Department of Labor for violation of
her First Amendment right to run for office without penalty.
The district court dismissed her complaint for lack of subject
matter jurisdiction and failure to state a claim. Upon de novo
review, we affirm.
I.
According to the complaint, Pueschel began working for
the FAA as an air traffic controller over forty years ago, in
1974. Compl. ¶ 6. Things did not always go well. In 1980,
she filed an Equal Employment Opportunity (“EEO”)
administrative complaint alleging a pattern of sexual
harassment by male employees, and in 1981, she sued the FAA
for alleged sexual harassment and reprisal. Id. ¶¶ 10, 14.
Although losing in the district court, she prevailed on appeal
on the ground that she had been subject to a hostile work
environment. Katz v. Dole, 709 F.2d 251, 256–57 (4th Cir.
1983); Compl. ¶¶ 18–19. Pueschel continued to file other EEO
complaints against the FAA in 1990, 1992, 1997, and 2001.
Compl. ¶ 21.
Pueschel also suffered physical and emotional injuries
stemming from her employment. Id. ¶ 11. In May 1981, she
injured her back and neck at work and filed a claim for
workers’ compensation with the Office of Workers’
Compensation Programs (“OWCP”). Id. ¶ 12. When she later
called in sick due to back pain on the same day as an illegal air

App. 2

Page 2 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

3
traffic controllers’ strike, id. ¶¶ 15–16, the FAA fired her on
the assumption that she had participated in the strike and
challenged her benefits claim, id. ¶ 16. Pueschel appealed and
the Merit Systems Protection Board reversed her termination.
Id. ¶¶ 17, 20. Then, in 1994, Pueschel experienced an anxiety
attack on the job and never returned to work. Id. ¶ 22.
In September 1998, OWCP granted Pueschel’s claims for
full disability benefits based on the physical and emotional
conditions resulting from her federal employment. Id. ¶¶ 23,
25. In 1999, the FAA terminated Pueschel’s employment on
the ground she was no longer able to work as an air traffic
controller, and this time her appeal of the termination of her
employment was unsuccessful. Id. ¶ 24. Thereafter, Pueschel
unsuccessfully ran for the United States House of
Representatives between 2000 and 2004 and again between
2012 and 2016. Id. ¶ 27.
The FAA informed OWCP by letter of October 9, 2015,
that Pueschel had “demonstrated, and continues to
demonstrate, the ability to run for elective office,” and that her
actions disprove her doctor’s contention she “is ‘permanently
disabled’ and that ‘it is doubtful that she will be able to work
in any . . . capacity.’” Id. ¶ 30 (quoting Letter from FAA to
OWCP (Oct. 9, 2015)). In January 2016, OWCP reduced
Pueschel’s benefits, stating that she “was now capable of
working full time as a ‘customer service representative.’”
Id. ¶ 31. When Pueschel wrote Margaret Gilligan, the
Associate Administrator for Aviation Safety at FAA, on April
9, 2016, about these events and asked to return to work,
preferably in the FAA Historian’s office, id. ¶ 33 (referencing
Letter from Deborah Pueschel to Margaret Gilligan (Apr. 9,
2016)), Gilligan responded by letter of April 15, 2016, that her
request was a matter for Human Resources, id. ¶ 34
(referencing Letter from Margaret Gilligan to Deborah

App. 3

Page 3 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

4
Pueschel (Apr. 15, 2016)). On August 8, 2016, Pueschel filed
an EEO complaint, the dismissal of which was affirmed by the
EEOC’s Office of Federal Operations, which also denied her
request for reconsideration. Id. ¶¶ 38–42.
Pueschel filed a three count complaint against the
Secretary of Transportation and the Department of Labor for
violation of Title VII of the Civil Rights Act of 1996, 42 U.S.C.
§ 2000e–16(a), the Rehabilitation Act of 1973, 29 U.S.C.
§ 794a, the Americans with Disabilities Act of 1990, 42 U.S.C.
§ 12101 et seq., and the First Amendment of the United States
Constitution. Count one alleged that the FAA retaliated against
Pueschel in violation of the Rehabilitation Act and Title VII by
informing OWCP of her congressional campaigns, which
ultimately led to the reduction of her benefits. Compl. ¶¶ 44–
46. Count two alleged that the FAA violated the Rehabilitation
Act and the Americans with Disabilities Act by discriminating
against her when it failed to rehire her after she requested to be
hired for a position commensurate with her disability. Id.
¶¶ 47–49. Count three alleged that the FAA and OWCP
violated Pueschel’s First Amendment right to run for office
without penalty by reducing her benefits because she ran for
Congress. Id. ¶¶ 50–52.
The district court granted the defendants’ motion to
dismiss the complaint. Pueschel v. Chao, 357 F. Supp. 3d 18
(D.D.C. 2018). The court dismissed Count one for lack of
subject matter jurisdiction pursuant to Federal Rule of Civil
Procedure 12(b)(1), finding Pueschel’s retaliation claim
amounted to a collateral attack on OWCP’s unreviewable
disability benefits determination. Id. at 26. The court
dismissed Counts two and three for failure to state a claim
pursuant to Federal Rule of Civil Procedure 12(b)(6), finding
Pueschel’s discrimination claim against the FAA failed
because she was not an “applicant for employment” within the

App. 4

Page 4 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

5
meaning of Title VII and the Rehabilitation Act. Id. at 27. The
court found that Pueschel lacked standing to bring a
constitutional claim against the FAA, id. at 28–29, which she
does not challenge on appeal, and that Pueschel failed to state
a First Amendment claim against OWCP, id. at 29–30.
Pueschel appeals, and our review is de novo. Kim v.
United States, 632 F.3d 713, 715 (D.C. Cir. 2011). Although
the court must assume the truth of well pled factual allegations
and reasonable inferences therefrom, the court is not required
to accept Pueschel’s legal conclusions as correct. See, e.g.,
Doe v. Rumsfeld, 683 F.3d 390, 391 (D.C. Cir. 2012). And as
a threshold matter, Pueschel’s complaint must include
“sufficient factual matter . . . to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)).
II.
On appeal, Pueschel contends that the district court erred
as a matter of law in dismissing Count one of her complaint
because it is not directed at any action by OWCP but rather
action by the FAA. She contends that the district court erred in
dismissing Count two by imposing a non-existent formal
application requirement for federal reemployment, relying on
a forty-five-year-old, out-of-circuit district court opinion that
did not involve a disabled employee trying to return to her
former agency. The dismissal of Count three was error, she
contends, because the federal government’s demand that she
surrender her benefits imposed an unacceptable burden on her
ability to run for office. She notes that this court’s precedent
did not involve a choice imposed by the government and
maintains that the district court’s reliance on the Supreme

App. 5

Page 5 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

6
Court’s approval of the Hatch Act was inapposite to the issue
presented.
A.
The Federal Employees’ Compensation Act (“FECA”), 5
U.S.C. § 8101 et seq., provides that the decision of the
Secretary of Labor or her designee “in allowing or denying a
payment” of federal workers’ compensation benefits is “(1)
final and conclusive for all purposes and with respect to all
questions of law and fact; and (2) not subject to review by
another official of the United States or by a court by mandamus
or otherwise.” 5 U.S.C. § 8128(b)(1)–(2). Consequently, as to
Count one, Pueschel concedes on appeal that the prayer for
relief in her complaint is “inartfully worded,” Appellant’s Br.
20, and urges Count one be read as “not . . . directed at any act
by OWCP” and “aimed solely at the FAA’s conduct,” id. at 14.
See also Compl. ¶¶ 44–46; Prayer for Relief ¶¶ 1, 4. We agree
Count one can be so read, and therefore our review is not barred
by the Act.
Even so, the obstacle to Pueschel’s reprisal claim, instead,
is the significant gap in time between the FAA’s 2015 letter
notifying OWCP of her ability to run for Congress, which
Pueschel alleges was retaliatory, Compl. ¶¶ 29, 45–46, and the
EEO complaints she filed between 1980 and 2001, id. ¶¶ 10,
21. Pueschel suggests this alternative ground should not be
reached because the issue was not fully briefed in district court,
but the government presented this alternative ground in the
district court, and the issue has been fully briefed by the parties
on appeal. Our review of the sufficiency of a complaint under
Federal Rule of Civil Procedure 12(b)(6) is de novo. So “we
may independently assess” that sufficiency. Kaemmerling v.
Lappin, 553 F.3d 669, 676 (D.C. Cir. 2008).

App. 6

Page 6 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

7
Pueschel maintains that “[a]s a former employee of the
FAA, [she] is protected from actions by the FAA directed
against her because of discrimination and reprisal claims she
filed against the [FAA].” Appellant’s Br. 14. In Robinson v.
Shell Oil Co., 519 U.S. 337 (1997), the Supreme Court
recognized a former employee’s right to bring retaliation
claims, id. at 346. But Pueschel overlooks that in the absence
of direct evidence of retaliation such claims are generally
limited to conduct occurring shortly after the employee’s
protected activity. This court has viewed mere temporal
proximity to support an inference of causation “only where the
two events are very close in time,” Hamilton v. Geithner, 666
F.3d 1344, 1357 (D.C. Cir. 2012) (quoting Woodruff v. Peters,
482 F.3d 521, 529 (D.C. Cir. 2007)). These cases were
resolved on summary judgment, and not a Rule 12 dismissal,
but Pueschel cannot deny that there was a gap of almost fifteen
years between the FAA’s 2015 letter about her congressional
runs and her EEO complaints filed between 1980 and 2001.
Here, the lack of temporal proximity prevents the court from
drawing a reasonable inference of causality when no additional
factual allegations support causation.
Although no bright line rule has been established, the
Supreme Court has recognized that “[t]he cases that accept
mere temporal proximity between an employer’s knowledge of
protected activity and an adverse employment action as
sufficient evidence of causality to establish a prima facie case
uniformly hold that the temporal proximity must be ‘very
close,’” citing approvingly cases where three- and four-month
intervals were found insufficient to infer causality between the
protected activity and the adverse employment action. Clark
Cty. Sch. Dist. v. Breeden, 532 U.S. 268, 273 (2001) (quoting
O’Neal v. Ferguson Constr. Co., 237 F.3d 1248, 1253 (10th
Cir. 2001)). The Court concluded that an action taken “20
months later suggests, by itself, no causality at all.” Id. at 274.

App. 7

Page 7 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

8
This court, too, has often analyzed temporal proximity in terms
of months — not years. See, e.g., Harris v. D.C. Water &
Sewer Auth., 791 F.3d 65, 69 (D.C. Cir. 2015) (five months);
Hamilton, 666 F.3d at 1358 (three months); Mitchell v.
Baldrige, 759 F.2d 80, 86–87 (D.C. Cir. 1985) (four months).
In Rochon v. Gonzales, 438 F.3d 1211 (D.C. Cir. 2006), upon
considering whether the adverse action “took place shortly
after” the protected activity, id. at 1220 (quoting Mitchell, 759
F.2d at 86), the court concluded that that the plaintiff survived
the motion to dismiss because the alleged retaliation occurred
“around the time” of his alleged protected activity and thus
supported a reasonable inference that the government acted
with a retaliatory motive, id.
Pueschel alleged that the FAA retaliated almost fifteen
years after her protected activity. Compl. ¶¶ 21, 46. Her
retaliation claim rests solely on the fact that she was formerly
employed by the FAA and filed several EEO complaints
between 1980 and 2001. Because these allegations, on their
own, do not support a reasonable inference of causality,
Pueschel’s complaint fails to raise “more than a sheer
possibility that [the FAA] has acted unlawfully.” Iqbal, 556
U.S. at 678. Pueschel has shown no basis for the court to
reverse the dismissal of Count one as we affirm on the alternate
ground of failure to state a claim.
B.
The Rehabilitation Act applies the substantive
discrimination standards of the Americans with Disabilities
Act to executive agencies, see 29 U.S.C. §§ 791(f), 794(d), and
it makes Title VII rights, remedies, and procedures available to
federal agency “employee[s] or applicant[s] for employment,”
id. § 794a(a)(1). Because Pueschel is neither an “employee”
nor an “applicant” within the meaning of the Rehabilitation Act
or Title VII, the district court ruled she failed to state a claim.

App. 8

Page 8 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

9
Pueschel challenges the district court’s reasoning underlying
the dismissal of Count two as assuming a material fact for
which there is no support, namely a formal reapplication
requirement.
Pueschel maintains that as a former FAA employee she
fulfilled any application requirement for reemployment when
she wrote to an FAA employee and requested a part-time
assignment with the FAA Historian. See Compl. ¶ 33
(referencing her April 9, 2016, letter to Margaret Gilligan, FAA
Associate Administrator for Aviation Safety). The district
court, in her view, incorrectly assumed that this letter was not
a sufficient application and that she was required to submit a
formal application in order to be an “applicant.” Her letter to
Gilligan was incorporated by reference in her complaint and is
properly considered on a motion to dismiss. See EEOC v. St.
Francis Xavier Parochial Sch., 117 F.3d 621, 624 (D.C. Cir.
1997).
Even assuming that a former employee’s request for
reemployment does not require the formality of an application
submitted by an individual with no prior employment history
with the agency, Pueschel’s letter to Gilligan did not make
Pueschel an “applicant” for employment under the
circumstances. Pueschel, on her own initiative, wrote to an
FAA employee with whom she was familiar; apparently
Gilligan had been managing her EEO complaints since the
1980s, Appellant’s Br. 7 n.4. Gilligan’s reply by letter of April
15, 2016, stated she “was unable to respond” because this was
a matter for Human Resources. Compl. ¶ 34. Although
Gilligan advised Pueschel that she needed to submit her letter
to Human Resources, Pueschel does not allege that she ever
did. Neither does she allege that Gilligan had any connection
to her requested position or to Human Resources more
generally, or that Gilligan had any obligation to forward her

App. 9

Page 9 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

10
request to Human Resources. Pueschel also fails to allege that
her letter obligated the FAA to offer suitable work pursuant to
OWCP regulations. See, e.g., 20 C.F.R. §§ 10.505–507.
Pueschel alleges only that she received no further response.
Compl. ¶ 34.
The district court, therefore, properly ruled that
“[s]ubmitting a letter to an employee who does not handle
employment-related requests does not make Pueschel an
‘applicant’ with respect to FAA.” Pueschel, 357 F. Supp. 3d
at 27. At minimum, Pueschel would need to send her letter to
someone with the authority to grant her request or with an
obligation to forward her request to the proper office or
individual. Otherwise, this type of letter “could be sent to any
one of hundreds or thousands of agency employees — or,
worse, to unattended mailboxes or email accounts — and
expose an agency to litigation simply for failing to discover it.”
Id. Because Pueschel never submitted her request in
accordance with the FAA’s division of responsibilities after
receiving explicit information on how to do so, Pueschel fails
to show that the district court erred in dismissing Count two of
her complaint.
C.
After the FAA informed OWCP that Pueschel had
demonstrated an ability to run for elective office, disproving
her doctor’s contention that she was “permanently disabled”
and would be unable to work again in any capacity, Compl.
¶ 30, OWCP reduced Pueschel’s disability benefits, finding
that “she was now capable of working full time as a ‘customer
service representative,’” id. ¶ 31. Pueschel maintains that
OWCP’s determination violated the First Amendment because
it relied “solely on the fact that she was a candidate” to
determine that she was ineligible for certain disability benefits.
Oral Arg. Rec. 15:04–12 (Feb. 12, 2020).

App. 10

Page 10 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

11
In Branch v. FCC, 824 F.2d 37 (D.C. Cir. 1987), this court
recognized that the “right to seek political office . . . . is
undeniable, though the Constitution and the Supreme Court’s
cases in the area do not pinpoint the precise grounds on which
it rests,” id. at 47. In Branch, a television news reporter
maintained that a federal statute “extinguishe[d] his right to
seek political office” because it required broadcast media to
provide “equal time” to political opponents, and his station
management, relying on this statute, had advised him that if he
wished to maintain his candidacy he must take an unpaid leave
of absence during his campaign. Id. at 39, 47. The court held
that the statutory burden was “justifiable as ‘both reasonable
and necessary to achieve the important and legitimate
objectives of encouraging political discussion and preventing
unfair and unequal use of the broadcast media.’” Id. at 49
(quoting Paulsen v. FCC, 491 F.2d 887, 892 (9th Cir. 1974)).
The court further reasoned: “[N]obody has ever thought that a
candidate has a right to run for office and at the same time to
avoid all personal sacrifice” and “many people find it necessary
to choose between their jobs and their candidacies.” Id. at 48.
For support, the court cited the Hatch Act, 5 U.S.C.
§ 7324(a)(2), which requires government employees to resign
from work if they wish to run for certain political offices and
which the Supreme Court upheld against constitutional
challenge in U.S. Civil Service Commission v. National Ass’n
of Letter Carriers, 413 U.S. 548, 567 (1973).
Pueschel would distinguish Branch and Letter Carriers on
the ground that neither case involves the federal government’s
reduction of disability benefits. In her view this fact is
determinative because both cases involved a constitutional
challenge to a federal statute and the justifications underlying
the federal statutes cited in these cases — prohibiting partisan
political activity by federal employees or providing equal

App. 11

Page 11 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

12
media time to opposing candidates — are irrelevant to
OWCP’s decision here and Congress has not passed a statute
requiring OWCP to reduce disability payments to beneficiaries
running for public office.
The issue is not whether Congress has prohibited political
candidates from receiving full workers’ compensation benefits,
but whether the burden imposed by the federal statutes in
Branch and Letter Carriers is analogous to the alleged burden
imposed by OWCP’s determination. Pueschel alleges that
OWCP partially reduced her workers’ compensation benefits
because it had determined in view of her ability to run for office
that “she was now capable of working full time as a ‘customer
service representative.’” Compl. ¶¶ 30–31. That Pueschel may
have to choose between retaining full disability benefits and
her candidacy “does not differ in kind from the fact ‘many
people find it necessary to choose between their jobs and their
candidacies.’” Pueschel, 357 F. Supp. 3d at 29–30 (quoting
Branch, 824 F.2d at 48). Furthermore, her complaint contains
no allegation that OWCP had animus toward her political
activity, either her decision to run for political office or her
political views or running for office in general. Absent these
types of circumstances, Pueschel’s right to seek political office
is “not implicated.” See Branch, 824 F.2d at 48. Because her
First Amendment contention is foreclosed by our precedent,
she has failed to show the district court erred in dismissing
Count three of her complaint. To the extent Pueschel contends
that OWCP has uniformly interpreted FECA to hold that a
beneficiary’s candidacy for office could not play any role in the
determination of her disability or her benefits, her reliance on
OWCP administrative cases on wage-earning capacity in view
of later election to public office is misplaced. At issue here is
whether OWCP’s determination that Pueschel demonstrated an
ability to perform work by running for public office violated

App. 12

Page 12 of 13

USCA Case #18-5330

Document #1837961

Filed: 04/14/2020

13
the First Amendment — not whether her wage-earning
capacity was appropriately determined.
Accordingly, we affirm the dismissal of Pueschel’s
complaint.

App. 13

Page 13 of 13

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 1 of 17

UNITED STATES DISTRICT COURT
FORTHEDIBTRICTOFCOLUMBIA
DEBORAH K. PUESCHEL,

Plaintiff,
V.

ELAINE CHAO, in her Official Capacity as
Secretary, Department of Transportation, et
al.,

Civil Action No. 17-cv-1279 (DLF)

Defendants.

MEMORANDUM OPINION
Deborah Pueschel engaged in a long string of employment-related disputes with her
employer, the Federal Aviation Administration (FAA), and began receiving full-time disability
benefits for work-related injuries from the Office of Worker Compensation (OWCP) in 1998.
She later decided to run for Congress. When FAA found out, it contacted OWCP and said
Pueschel's campaign activities demonstrated an ability to work that was inconsistent with the
full-time disability benefits she was receiving. OWCP reduced Pueschel's benefits accordingly
and cleared her for full-time work. Pueschel then wrote FAA to request a job, but never received
one. Now, she brings these Title VII and Rehabilitation Act claims against FAA for retaliation
and disability discrimination, asserting that FAA retaliated against her by encouraging OWCP to
reduce her benefits and that FAA discriminated against her by not giving her a job. Pueschel
also brings First Amendment claims against both FAA and OWCP, asserting that they violated
her "right to run for Congress without penalty" by taking her campaign activities into account in
reducing her benefits. Comp!. ,i 52, Dkt. 1 at 10. Before the Court is defendants' joint Motion to

App. 14

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 2 of 17

Dismiss under Rule 12(b)(l) and Rule 12(b)6) of the Federal Rules of Civil Procedure. 0kt. 151 (redacted). For the reasons that follow, the Court will grant the motion.

I. BACKGROUND 1
Pueschel began working for FAA as an Air Traffic Controller in 1974. Comp I.

~

6. In

1980, she filed an EEO complaint alleging a pattern of sexual harassment by her male
colleagues. Id.

~

10. In 1981, her disputes with FAA began to intensify. First, she was injured

at work and filed a claim for worker compensation with OWCP. Id.~ 12. Next, she filed a
federal lawsuit alleging sexual harassment and reprisal. Id.

~

14. After that, she called in sick

due to back pain on the same day as an illegal air traffic controllers' strike. Id.~ 16. FAA
assumed that Pueschel had participated in the strike, so it fired her and challenged her OWCP
claim. Id.
Pueschel lost her first round of sexual-harassment litigation in federal court but obtained
a reversal from the Fourth Circuit in 1983. Id. ~~ 18, 19.2 Three months later, she convinced the
U.S. Merit Systems Protection Board to reverse her termination. Id.

~

20. Things between

Pueschel and FAA went smoothly for the next seven years. But Pueschel filed additional EEO
complaints against FAA in 1990, 1992, 1997, and 2001. Id.

~

21. Meanwhile, Pueschel suffered

an anxiety attack on the job in 1994 and never returned to work. Id. ~ 22. She requested
disability benefits for work-related anxiety and physical injuries arising from the incident, which
OWCP granted in 1998. Id.

~

23. In 1999, FAA terminated Pueschel again-this time because

1

The facts here are recited as alleged in Pueschel's Complaint and are assumed true, as they
must be in considering a motion to dismiss. See Ctr. for Responsible Sci. v. Gottlieb, 311 F.
Supp. 3d 5, 8 (D.D.C. 2018).
2

See Katz v. Dole, 709 F.2d 251 (4th Cir. 1983).

2

App. 15

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 3 of 17

she was no longer able to work as an air traffic controller. Id.

,r 24.

She unsuccessfully appealed

her termination. Id.
In 2000, Pueschel set her sights on Congress. Id

,r 27.

She ran for the House of

Representatives in 2000-2004 and again in 2012-2016. Id. Sometime in 20 I 2, FAA began
questioning whether Pueschel's campaign activities demonstrated an ability to work that was
inconsistent with the full-time OWCP benefits she was still receiving. Id.

,r 28.

On October 9,

20 I 5, FAA sent a letter to OWCP stating that Pueschel "demonstrated, and continues to
demonstrate, the ability to run for elective office" and that her campaigning activities
"disprove[d]" the conclusion that she was ''permanently disabled" and likely not "able to work in
any capacity." Id.

,r 30.

In January 2016, OWCP reduced Pueschel's disability benefits on the

grounds she was then capable of working full time as a ;·customer service representative." Id.

,r 31.

In March 2016, Pueschel complained to an EEO counselor about what she considered

FAA's "efforts to deprive her of her disability benefits." Id.

,r 32.

In April 2016, Pueschel sent a letter to FAA-specifically, to Margaret Gilligan, the
Associate Administrator for Aviation Safety, Pl. 's Opp'n Ex. 4, 0kt. 21-4 at 13-explaining that
she had been cleared for full-time work and was requesting a position in the FAA Historian's
office, Comp!.

,r 33.

Gilligan wrote back that she was "unable to respond to [Pueschel's] request

as this is a matter to be addressed by the Air Traffic Organization and the Office of Human

3

Because Pueschel incorporated her letter to FAA in her complaint by reference, the Court may
consider plaintiffs copy of that letter on a motion to dismiss. See EEOC v. St. Francis Xavier
Parochial Sch., I 17 F.3d 621, 624 (D.C. Cir. 1997) ("In determining whether a complaint fails to
state a claim, [the court] may consider only the facts alleged in the complaint, any documents
either attached to or incorporated in the complaint and matters of which [the court] may take
judicial notice.").

3

App. 16

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 4 of 17

Resources." Pl. Opp'n Ex. 4, at 3; see also Comp!. ~ 34. Pueschel never heard from FAA again
regarding her request. Comp!. ~ 34.
On July 29, 2016, Pueschel initiated the EEO complaint process against FAA, which
culminated in a final EEOC decision rejecting her claims on April 3, 2017. Id. ~~ 35-42. She
timely filed this suit within 90 days of receiving that decision. Id.~ 43; see also 42 U.S.C.

§ 2000e-16( C).
Pueschel brings count I against FAA 4 for reprisal under the Rehabilitation Act and Title
VII. Comp!.~~ 44-46. She brings count II against FAA for disability discrimination under the
Rehabilitation Act and the Americans with Disabilities Act (ADA). Id.~~ 47-49. And she
brings count III against both FAA and OWCP 5 for violating her right to run for Congress without
penalty under the First Amendment. Id.

~~

50-52.

For relief, Pueschel seeks: findings consistent with all three Counts; $300,000 in
compensatory damages; a position with FAA retroactive to her April 9, 2016 request for
employment; a remand of OWCP's decision reducing her disability benefits with instructions to
recalculate them without regard for her candidacy for the House of Representatives; and
reasonable attorneys' fees and expenses. Id. at 11. In response to plaintiffs complaint,
defendants filed this joint Motion to Dismiss for lack of subject-matter jurisdiction and failure to
state a claim upon which relief can be granted.

As required by 42 U.S.C. § 2000e-16(c), plaintiff formally names the Secretary of
Transportation, Elaine Chao, in her official capacity as the head of Transportation, which
includes FAA. For simplicity, the Court will refer to "FAA."
4

5

Plaintiff formally names the Department of Labor, which includes OWCP. For simplicity, the
Court will refer to "OWCP."

4

App. 17

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 5 of 17

11. LEGAL STANDARDS
Under Federal Rule of Civil Procedure 12(b)(l), a party may move to dismiss an action
or claim when the court lacks subject-matter jurisdiction. Fed. R. Civ. P. 12(b)(l). A motion for
dismissal under Rule l 2(b)(1) "presents a thresho Id challenge to the court's jurisdiction." Haase

v. Sessions, 835 F.2d 902, 906 (D.C. Cir. 1987). Federal district courts are courts of limited
jurisdiction, and it is "presumed that a cause lies outside this limited jurisdiction." Kokkonen v.

r,

(,\ \I

Guardian Life Ins. Co., 511 U.S. 37\ 377 (1994). Thus, "the plaintiff bears the burden of
establishing jurisdiction by a preponderance of the evidence." Moran v. U.S. Capitol Police Bd.,
820 F. Supp. 2d 48, 53 (D.D.C. 2011) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555,561
(1992)).
"When ruling on a Rule 12(b)(1) motion, the court must treat the plaintiffs factual
allegations as true and afford the plaintiff the benefit of all inferences that can be derived from
the facts alleged." Jeong Seon Han v. Lynch, 223 F. Supp. 3d 95, 103 (D.D.C. 2016) (internal
quotation marks omitted). Those factual allegations, however, receive "closer scrutiny" than
they would in the Rule 12(b)(6) context. Id. Also, unlike when evaluating a Rule 12(b)(6)
motion, a court may consider documents outside the pleadings to evaluate whether it has
jurisdiction. See Jerome Stevens Pharm., Inc. v. FDA, 402 F.3d 1249, 1253 (D.C. Cir. 2005). If
the court determines that it lacks jurisdiction, the court must dismiss the claim or action. Fed. R.
Civ. P. 12(b)(l), 12(h)(3).
Rule 12(b)(6) of the Federal Rules of Civil Procedure allows a defendant to move to
dismiss the complaint for failure to state a claim upon which relief can be granted. Fed. R. Civ.
P. 12(b)(6). To survive a Rule 12(b)(6) motion, a complaint must contain factual matter
sufficient to "state a claim to relief that is plausible on its face." Bell At!. Corp. v. Twombly, 550

5

App. 18

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 6 of 17

U.S. 544, 570 (2007). A facially plausible claim is one that "allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged." Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). This standard does not amount to a specific probability requirement,
but it does require "more than a sheer possibility that a defendant has acted unlawfully." Id.; see

also Twombly, 550 U.S. at 555 ("Factual allegations must be enough to raise a right to relief
above the speculative level."). A complaint alleging facts that are "merely consistent with a
defendant's liability ... stops short of the line between possibility and plausibility." Iqbal, 556
U.S. at 678 (internal quotation marks omitted).
Well-pleaded factual allegations are "entitled to [an] assumption of truth," id. at 679, and
the court construes the complaint "in favor of the plaintiff, who must be granted the benefit of all
inferences that can be derived from the facts alleged," Hettinga v. United States, 677 F.3d 471,
476 (D.C. Cir. 2012) (internal quotation marks omitted). The assumption of truth does not apply,
however, to a "legal conclusion couched as a factual allegation." Iqbal, 556 U.S. at 678 (internal
quotation marks omitted). An "unadorned, the-defendant-unlawfully-harmed-me accusation" is
not credited; likewise, "[t]hreadbare recitals of the elements of a cause of action, supported by
mere conclusory statements, do not suffice." Id.

III. ANALYSIS
A.

Plaintifrs Reprisal Claim Against FAA

Plaintiff brings a claim for reprisal under the Rehabilitation Act and Title VII. But
Defendants argue that another statute-the Federal Employee's Compensation Act (FECA)prevents that claim from proceeding. FECA governs OWCP benefits and provides federal
employees with an exclusive remedy against the United States for work-related injuries. See 5
U.S.C. § 8116(c). Section 8128(b) of that Act allows the Secretary of Labor to "end, decrease,
6

App. 19

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 7 of 17

or increase" worker compensation "previously awarded." Id. § 8128( a). And it provides that the
decision of the Secretary of Labor-or its designees, such as OWCP-is "final and conclusive
for all purposes and with respect to all questions of law and fact" and "not subject to review ...

by a court by mandamus or otherwise." Id. § 8128(b) (emphasis added). Unless an exception
applies, § 8128(b) operates to divest federal courts of subject-matter jurisdiction over OWCP
benefit decisions. See, e.g., Lindahl v. Office of Pers. Mgmt., 470 U.S. 768, 779 & n.13 (1985)
(listing§ 8128(b) as an example of"Congress intend[ing] to bar judicial review altogether");

Gallucci v. Chao, 374 F. Supp. 2d 121, 128 (D.D.C. 2005) (finding no "subject matter
jurisdiction because federal question jurisdiction is precluded by 5 U .S.C. § 8128(b)"), ajfd, No.
05-5280, 2006 WL 3018055 (D.C. Cir. Mar. 2, 2006).
Because the Court is powerless to review OWCP's decision directly, it cannot do so
indirectly by fashioning relief under the Rehabilitation Act and Title VII. 6 In determining where
FECA ends and Title VII and the Rehabilitation Act may begin, courts distinguish between tort
injuries-which are the exclusive province of FECA-and discrimination injuries-which are
not. See Prescott-Harris v. Fanning, No. 15-1716, 2016 WL 7223276, at *5 (D.D.C. Dec. 12,
2016) (distinguishing between "work-related injuries" and "claims of discrimination, which are
different causes of action aimed at redressing different kinds of harms"). Although FECA
generally does not bar discrimination claims, see Williams v. Tapella, 658 F. Supp. 2d 204, 21011 (D.D.C. 2009) (collecting cases), "[a] frustrated FECA claimant cannot secure judicial review
of a FECA compensation decision by claiming that the Rehabilitation Act entitles her to [relief]
... when the claim is predicated upon the same illness or injury that gave rise to the Department
6

Plaintiff makes no argument to the contrary; she argues only that § 8128(b) does not bar her
constitutional claims. Id. at 12-17.

7

App. 20

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 8 of 17

of Labor's initial [FECA] decision." Prescott-Harris, 2016 WL 7223276 at *5 (third alteration
in original) (quoting Meester v. Runyon, 149 F.3d 855, 857 (8th Cir. 1998), cert. denied, Meester
v. Henderson, 526 U.S. 1144 (1999)); see also Stubler v. Runyon, 892 F. Supp. 228, 230 (W.D.

Mo. 1994) (finding Rehabilitation Act claim barred where plaintiff "in fact seeks recovery for
the same physical condition for which she has received and continues to receive compensation
under [FECA]"), af/'d, 56 F.3d 69 (8th Cir. 1995) (unpublished table decision). Where
Rehabilitation Act claims "have no effect on the Secretary of Labor's determination of factual
and legal issues pertaining to plaintiffs FECA claim or eligibility for worker's compensation
benefits[,] ... FECA does not bar" them. Williams, 658 F. Supp. 2d at 210. But where the
plaintiff "is essentially asking [the court] to hold that the Department of Labor was wrong ...
[s]uch a holding would contravene FECA's prohibition against judicial review of compensation
decisions." Meester, 149 F.3d at 857. In such a case, the court "will not allow [the plaintiff] to
use the Rehabilitation Act to circumvent Congress's intent." Id.
Here, Pueschel's sole reprisal theory is that FAA '"succeeded in reducing [her]
disability/worker compensation benefits by repeatedly complaining to OWCP that [she] was no
longer disabled." Comp!.~ 45. Aside from her initial workplace injury in 1994, however, she
does not allege any new "illness or injury" resulting from FAA's complaint to OWCP. Rather,
she claims FAA's actions caused OWCP to determine the compensation owed for her existing
injuries incorrectly. She seeks compensatory damages from FAA calculated to offset OWCP's
reduction in disability benefits. And she also asks the Court to remand the OWCP's decision for
reconsideration. In substance, Pueschel's claim is a challenge to OWCP's determination, which
is both exclusive and unreviewable. Because plaintiff's claim amounts to an attempt to relitigate

8

App. 21

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 9 of 17

OWCP's FECA determination under the banner of the Rehabilitation Act and Title VII, FECA
precludes her suit. The Court must dismiss count 1. 7

B.

Plaintifrs Discrimination Claim Against FAA

Pueschel also alleges that FAA discriminated against her on account of her disability
when it failed to re-hire her after she had been cleared for full-time work. Because Pueschel' s
discrimination claim focuses on a new discriminatory injury unrelated to the workplace injuries
considered by OWCP, it is not barred by 5 U.S.C. § 8128(b).
The Rehabilitation Act applies the substantive discrimination standards of the Americans
with Disabilities Act (ADA) to executive agencies, see 29 U.S.C. §§ 79l(f), 794(a), 794(d), and
it makes Title VII rights, remedies, and procedures available to federal agency "employee[s] or
applicant[s] for employment," 29 U.S.C. § 794a(a)(l ). Pueschel does not claim to be an
"employee" for purposes of her discrimination claim, so she must be an "applicant" in order to
bring her claim under the Rehabilitation Act. But she is not.
An authoritative dictionary published near the time the relevant provisions were enacted
defines "applicant" as "one who makes a usu[ally] formal request esp[ecial]y] for something of
benefit to himself." Webster's Third New International Dictionary 105 (1961 ). But the parties
point to only one case interpreting the term "applicant for employment" as it appears in Title VII
and the Rehabilitation Act. In Hockett v. Administrator of Veterans Affairs, the court noted the
absence of any relevant statutory definition, legislative history, or precedent and gave the term
"applicant for employment" a "reasonable construction." 385 F. Supp. 1106, 1111 (N.D. Ohio

7

The Court does not reach defendants' argument that plaintiff has failed to allege an
employment relationship with FAA under the Rehabilitation Act and Title VII. See Defs.' Mot.
8-9, 0kt. 15-1 at 10-11.

9

App. 22

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 10 of 17

1974). 8 Although the court did not consider contemporaneous dictionary definitions, it echoed
the formality contemplated by Webster's Third and "concluded that 'applicant for employment'
... contemplates a person who has filed a written application for a particular position with a
government agency, or who has sought to file such an application but has been denied the
opportunity." Id. The court "further concluded that the written application need not necessarily
be on a form supplied by the agency, as long as the writing submitted by the applicant
particularizes the position sought and supplies the information requested in the agency's
application form." Id.
The court provided several reasons for its construction. First, Title VII "'placed a new
administrative responsibility on all federal agencies." Id. at 1112. Because Title VII's
"complaint procedure is complex and expensive, the triggering event which gives individuals the
power to invoke it should be as concrete and specific as possible." Id. Second, Title VII is
limited "by its own terms only to 'personnel actions' of federal agencies" and thus "contemplates
some official act or procedure," which "[i]n the context of hiring ... must mean the actual
rejection of an application." Id. Third, "the submission of a written application is an act which
is entirely within the control of the individual who desires to apply. Therefore, requiring such an
application will not place a new or significant burden upon an individual who wishes to invoke
[Title VII's] grievance procedure." Id.
The Court finds Hackett's reasoning persuasive and adds only that the written application
must also be submitted to a person or office responsible for receiving such applications. Without
that requirement, a written "application" could be sent to any one of hundreds or thousands of
8

The court in Hockett interpreted the term as it appears in a parallel Title VII provision
incorporated by reference in the Rehabilitation Act. See 29 U.S.C. § 794a(a) (Rehabilitation
Act); 42 U.S.C. § 2000e-l 6 (Title VII).

10

App. 23

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 11 of 17

agency employees-or, worse, to unattended mailboxes or email accounts-and expose an
agency to litigation simply for failing to discover it. That approach would not make the
"triggering event" for Title VII grievance procedures "as concrete and specific as possible." Id.
Nor would it focus agency responsibility on an "official act or procedure." Id. Moreover,
submitting a written application to the person or office responsible for processing applications
"is an act which is entirely within the control of the individual who desires to apply" and thus
would "not place a new or significant burden upon an individual who wishes to invoke [Title
Vll's] grievance procedure." Id.
Here, Pueschel bases her standing as an "applicant" on one letter that she sent to the
Associate Administrator for Aviation Safety, Margaret Gilligan. See Pl.'s Opp'n, 0kt. 20-1 at

19-20 (redacted); Pl.'s Opp'n Ex. 4, at 1-2. In that letter, plaintiff explained that Gilligan was
the "lead attorney" on her case before the Merit Systems Protection Board thirteen years prior.
Pl.'s Opp'n Ex. 4, at 1. She then recapped her disputes with the FAA and requested a position as
an FAA Historian. Id. at 1-2. Gilligan sent a letter in return stating she was "unable to respond
to [plaintiffs] request as this is a matter to be addressed by the Air Traffic Organization and the
Office of Human Resources." Id. at 3.
Submitting a letter to an employee who does not handle employment-related requests
does not make Pueschel an "applicant" with respect to FAA. She merely sent a letter to an
individual FAA employee with whom she was familiar. Moreover, Gilligan did not actually
reject Pueschel's request for employment; she merely directed her to the organization and office
responsible for handling employment-related requests. Because Pueschel did not submit a
written application to the office responsible for receiving applications for employment, she was

11

App. 24

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 12 of 17

not an "applicant" within the meaning of Title VII and the Rehabilitation Act. The Court
therefore must dismiss count II.

C.

Plaintiffs First Amendment Claims

Finally, Pueschel alleges that both FAA and OWCP violated her First Amendment rights:
FAA by informing OWCP of her candidacy for Congress; and OWCP by considering that
candidacy in determining her disability benefits. As a threshold matter, neither 5 U.S.C.

§ 8 l 28(b) nor sovereign immunity deprive this Court of jurisdiction to consider those c !aims.
Defendants do not dispute that§ 8128(b) permits judicial review of plaintiffs
constitutional-as opposed to statutory-claims. Defs.' Reply, 0kt. 23 at 6-7. But even if an
agency "does not contest that the court has jurisdiction to review substantial constitutional
claims, the court must make its own determination of its jurisdiction." Lepre v. Dep 't of Labor,
275 F.3d 59, 64 (D.C. Cir. 2001).
In Lepre, the D.C. Circuit held that§ 8128(b) did not bar judicial review ofa due process
challenge to the procedures used by OWCP in calculating the plaintiffs benefits. Id at 68. In
reaching that conclusion, it considered the text of§ 8128(b), relevant Supreme Court precedent,
and the fact that "[ w] ithout exception, every other circuit to consider the scope of§ 8 l 28(b) has
concluded that it does not bar judicial review of constitutional claims." Id. Since Lepre, courts
in this Circuit have recognized that "[t]he general finality of administrative adjudications set out
in § 8 l 28(b) 'does not bar judicial review of constitutional claims.'" Hall v. Dep 't of Labor, 289
F. Supp. 3d 93, 99 (D.D.C. 2018) (quoting Lepre, 275 F.3d at 67-68), appeal filed, No. 18-5100
(D.C. Cir. Apr. 12, 2018); see also Gallucci, 374 F. Supp. 2d at 125 ("It is well established that
this court has subject matter jurisdiction to review a decision made under PECA if there has been
a constitutional violation."). Following Lepre and other courts, the Court concludes that
§ 8 l 28(b) does not deprive this Court of jurisdiction over Count III.
12

App. 25

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 13 of 17

Even though the Court is not deprived of jurisdiction by § 8 l 28(b), defendants argue that
the Court lacks jurisdiction for

a different reason:

sovereign immunity. See Defs.' Mot. 18.

''Absent a waiver, sovereign immunity shields the Federal Government and its agencies from
suit." FD!Cv. Meyer, 510 U.S. 471,475 (1995). And sovereign immunity is "jurisdictional in
nature." Id.; see also id. ("[T]he terms of the United States' consent to be sued in any court
define that court's jurisdiction to entertain the suit." (internal quotation marks and alteration
omitted)).
The Administrative Procedure Act (APA), however, waives the Federal Government's
sovereign immunity with respect to suits challenging the action or inaction of a federal agency,
so long as the plaintiff does not seek monetary damages. 5 U.S.C. § 702. And its waiver
"applies to any suit whether under the APA or not." Chamber of Commerce of the U.S. v. Reich,
74 F.3d 1322, 1328 (D.C. Cir. 1996).
Thus, the APA' s waiver of sovereign immunity covers constitutional challenges to
OWCP determinations to the extent plaintiff "seek[ s] an order that the Office of Workers'
Compensation redetermine his entitlement [to benefits]." Czerkies v. Dep 't of Labor, 73 F.3d
1435, 1438 (7th Cir. 1996) (en bane). That is precisely what plaintiff seeks here. She "has
specifically limited her prayer on Count 3" to a "[r]emand [of] OWCP's decision reducing [her]
worker compensation benefits with instructions to redecide the issue without regard for
Plaintiffs candidacy for Congress." Pl.'s Opp'n 17 (quoting Comp!. 11). Because plaintiff does
not seek monetary relief but only "a direction that the [OWCP] process h[er] claim in conformity
with [the Constitution]," Czerkies, 73 F.3d at 1438, the AP A's waiver of sovereign immunity
extends to her claim.

13

App. 26

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 14 of 17

1. Standing as to FAA
"[S]tanding is an essential and unchanging part of the case-or-controversy requirement of
Article III." Lujan, 504 U.S. at 560. To demonstrate standing, a "plaintiff must have (1)
suffered an injury in fact, (2) that is fairly traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable judicial decision." Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016). Because plaintiff's First Amendment claim against FAA falters at
step three-redressability-it must be dismissed.
As discussed, plaintiff explicitly limits her prayer for relief on Count III to remanding the

OWCP's decision, with instructions to the OWCP to reevaluate her disability benefits. But such
a remand-with-instructions would in no way bind FAA as a third party. Without a request for
judicial relief regarding FAA, a finding that FAA "violated Plaintiff's First Amendment right" in
the abstract, Comp!. 11, would amount to an advisory opinion prohibited by Article III, see Am.

Freedom Def Initiative v. Wash. Metro. Area Transit Auth., WMATA, No. 17-7059, 2018 WL
4000492, at *3 (D.C. Cir. Aug. 17, 2018) (''[A] federal court has no power to render advisory
opinions or decide questions that cannot affect the rights of litigants in the case before them.").
The Court must therefore dismiss Count Ill as to defendant FAA.
2. Failure to State a Claim as to OWCP
Defendants argue that no right to run for office without penalty exists and that, if one
does, it was not violated here. Defs.' Reply 7-9. The Court agrees with defendants' latter
argument.
The D.C. Circuit has recognized that the "right to seek political office ... is undeniable,
though the Constitution and the Supreme Court's cases in the area do not pinpoint the precise
grounds on which it rests." Branch v. F.C.C., 824 F.2d 37, 47 (D.C. Cir. 1987). In Branch, a

14

App. 27

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 15 of 17

television reporter challenged an FCC rule that required the station he worked for to give his
political opponents "equal time" on the air if he chose to run for office. Id. at 39. The frequency
of the reporter's broadcasts made doing so impracticable, so the station told the reporter he
would have to take an unpaid leave of absence during the campaign, with no guarantee of
reinstatement. Id. The reporter thus had to choose between his job and running for office.
Nevertheless, the court upheld the regulation and found that the "right to seek political office"
was "not implicated." Id. at 47-48. It reasoned that the rule did not "impose[] an undue burden
on [the reporter's] ability to run for office" because "nobody has ever thought that a candidate
has a right to run for office and at the same time to avoid all personal sacrifices." Id. at 48.
"Even if the practicalities of campaigning for office are put to one side," the court noted, ·'many
people find it necessary to choose between their jobs and their candidacies." Id. The court
observed that the Hatch Act "requires government employees to resign from work if they wish to
run for certain political offices" and imposes "many more intrusive restrictions as well," yet the
Supreme Court had upheld that Act, and similar state restrictions, against constitutional
challenge. Id (citing Clements v. Fashing, 457 U.S. 957 (l 982); U.S. Civil Serv. Comm 'n v.

Ass'n of Letter Carriers, 413 U.S. 548 (1973); United Pub. Workers v. Mitchell, 330 U.S. 75
(1947)).
Even if OWCP reduced Pueschel's disability benefits based on her candidacy-a fact
defendants vigorously dispute, see Defs.' Reply 7-in doing so, OWCP imposed no more
significant burden than the equal time rule in Branch. There, the plaintiff had to choose between
his job and running for office. Here, Pueschel did not lose her disability benefits entirely
because she ran for office. She experienced only a partial reduction in compensation. But just as
"nobody has ever thought that a candidate has a right to run for office and at the same time to

15

App. 28

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 16 of 17

avoid all personal sacrifices," Branch, 824 F.2d at 48, nobody has ever thought that a candidate
has a right to run for office and at the same time to receive full-time disability benefits. And the
fact Pueschel may have had to choose between her disability benefits and her candidacy does not
differ in kind from the fact "many people find it necessary to choose between their jobs and their
candidacies." Id.
Indeed, this case is even simpler than Branch. There, the plaintiffs candidacy directly
impacted his employment. Here, however, Pueschel's candidacy played at most an indirect role
in OWCP's reduction. See Pl.'s Opp'n. 25 (acknowledging that "OWCP's decision did not
directly concern the First Amendment"). Pueschel does not allege that her candidacy alone
triggered the reduction. Rather, she argues that OWCP's "citation of her campaign activities as
evidence to support the reduction" amounted to an unconstitutional "burden." Pl.'s Opp'n 22.
Because having one's candidacy considered as one factor in reducing disability benefits is no
more significant than the burden of direct job loss upheld in Branch, plaintiffs "right to seek
political office" is "not implicated." 824 F.2d at 47-48.
It is important to note what plaintiff does not allege. She does not claim that OWCP
reduced her benefits based on the viewpoint or content expressed in her campaign. Nor does she
claim that OWCP punished her for associating with a particular party or that OWCP purposefully
retaliated or discriminated against her because of her candidacy-for political reasons,
professional reasons, or otherwise. Rather, she argues her right to run for office was
impermissibly burdened by OWCP's benefit reduction. Finding that theory foreclosed by D.C.
Circuit precedent, the Court will dismiss what remains of count III.

16

App. 29

Case 1:17-cv-01279-DLF Document 25 Filed 09/13/18 Page 17 of 17

CONCLUSION
For the foregoing reasons, the Court grants defendants' motion and dismisses counts I, II,
and III. A separate order consistent with this decision accompanies this memorandum opinion.

~-;!_-~~
DABNY L. FRJEDRICH

United States District Judge

Date: September 13, 2018

17

App. 30

